                          Federal Register / Vol. 63, No. 191 / Friday, October 2, 1998 / Notices                             53059

FEDERAL RESERVE SYSTEM                        PLACE:  Marriner S. Eccles Federal
            • Under subsection A, Immediate
                                              Reserve Board Building, 20th and C
          Office of the Deputy Inspector General
Notice of Proposals to Engage in              Streets, NW., Washington, DC 20551.
         for Investigations, the first paragraph is
Permissible Nonbanking Activities or          STATUS: Closed.
                             revised to read as follows—
to Acquire Companies that are                 MATTERS TO BE CONSIDERED:
                     This office is directed by the Deputy
Engaged in Permissible Nonbanking               1. Personnel actions (appointments,        Inspector General for Investigations
Activities                                    promotions, assignments,                     (who is responsible for the functions
                                              reassignments, and salary actions)           designated in the law for the position
   The companies listed in this notice        involving individual Federal Reserve
have given notice under section 4 of the                                                   Assistant Inspector General for
                                              System employees.                            Investigations). The Deputy Inspector
Bank Holding Company Act (12 U.S.C.             2. Any matters carried forward from a
1843) (BHC Act) and Regulation Y, (12                                                      General for Investigations supervises the
                                              previously announced meeting.                Assistant Inspector General for
CFR Part 225) to engage de novo, or to        CONTACT PERSON FOR MORE INFORMATION:
acquire or control voting securities or                                                    Investigative Operations and the
                                              Lynn S. Fox, Assistant to the Board;         Assistant Inspector General for
assets of a company, including the            202–452–3204.
companies listed below, that engages                                                       Investigative Oversight and Support,
                                              SUPPLEMENTARY INFORMATION: You may           who head the OI offices described
either directly or through a subsidiary or
                                              call 202–452–3206 beginning at               below.
other company, in a nonbanking activity
that is listed in § 225.28 of Regulation
                                              approximately 5 p.m. two business days         • The heading for subsection B and
                                              before the meeting for a recorded            the initial paragraph of subsection B are
Y (12 CFR 225.28) or that the Board has
                                              announcement of bank and bank                revised to read as follows:
determined by Order to be closely
                                              holding company applications                 B. Investigative Operations
related to banking and permissible for
                                              scheduled for the meeting; or you may
bank holding companies. Unless                                                               This office is directed by the Assistant
                                              contact the Board’s Web site at http://
otherwise noted, these activities will be                                                  Inspector General for Investigative
                                              www.bog.frb.fed.us for an electronic
conducted throughout the United States.                                                    Operations who supervises a
   Each notice is available for inspection    announcement that not only lists
                                                                                           headquarters staff and the Regional
at the Federal Reserve Bank indicated.        applications, but also indicates
                                                                                           Inspectors General for Investigations
The notice also will be available for         procedural and other information about
                                                                                           who carry out investigative activities in
inspection at the offices of the Board of     the meeting.
                                                                                           their assigned geographic areas.
Governors. Interested persons may               Dated: September 30, 1998.                   • The heading for subsection C and
express their views in writing on the         Robert deV. Frierson,                        the initial paragraph of subsection C are
question whether the proposal complies        Associate Secretary of the Board.            revised to read as follows:
with the standards of section 4 of the        [FR Doc. 98–26553 Filed 9–30–98; 11:25 am]   C. Investigative Oversight and Support
BHC Act.                                      BILLING CODE 6210–01–P                         This office is directed by the Assistant
   Unless otherwise noted, comments
                                                                                           Inspector General for Investigative
regarding the applications must be
received at the Reserve Bank indicated                                                     Oversight and Support who leads
                                              DEPARTMENT OF HEALTH AND                     outreach activities to State and local
or the offices of the Board of Governors
                                              HUMAN SERVICES                               investigative agencies, and the general
not later than October 16, 1998.
   A. Federal Reserve Bank of                                                              management functions of the Office of
                                              Office of the Secretary                      Investigations.
Richmond (A. Linwood Gill III,
Assistant Vice President) 701 East Byrd       Office of Inspector General; Statement         Dated: September 9, 1998.
Street, Richmond, Virginia 23261-4528:        of Organization, Functions and               June Gibbs Brown,
   1. First Frederick Financial               Delegations of Authority                     Inspector General.
Corporation, Frederick, Maryland; to                                                       [FR Doc. 98–26414 Filed 10–1–98; 8:45 am]
engage de novo through its subsidiary,           This notice amends Part A (Office of
                                              the Secretary) of the Statement of           BILLING CODE 4150–04–P
First Frederick Financial Corporation,
Frederick, Maryland, in placing cash          Organization, Functions and
dispensing machines in locations              Delegations of Authority for the
                                              Department of Health and Human               DEPARTMENT OF HEALTH AND
owned or leased by unaffiliated third                                                      HUMAN SERVICES
parties and thereby engage in data            Services (HHS) to reflect organizational
processing activities, pursuant to §          title changes set forth in sections AFJ.10   Office of the Secretary; Findings of
225.28(b)(14) of Regulation Y.                and AFJ.20 of Chapter AF, Office of          Scientific Misconduct
                                              Inspector General (OIG).
  Board of Governors of the Federal Reserve
System, September 28, 1998.
                                                 Specifically, Chapter AF is amended       AGENCY:   Office of the Secretary, HHS.
                                              as follows:                                  ACTION:   Notice.
Robert deV. Frierson,
                                                 1. Section AFJ.10, Office of
Associate Secretary of the Board.             Investigations—Organization, is revised      SUMMARY:   Notice is hereby given that
[FR Doc. 98–26379 Filed 10–1–98; 8:45 am]     to read as follows:                          the Office of Research Integrity (ORI)
BILLING CODE 6210–01–F                                                                     has made a final finding of scientific
                                              Section AFJ.10, Office of                    misconduct in the following case:
                                              Investigations—Organization                    Katrina Berezniak, M.A., University of
FEDERAL RESERVE SYSTEM                          The Office of Investigations comprises     Missouri—St. Louis: Based on a report
                                              the following components:                    forwarded to the Office of Research
Sunshine Act meeting                                                                       Integrity (ORI) by the University of
                                              A. Immediate Office

AGENCY HOLDING THE MEETING:  Board of
        B. Investigative Operations
                 Missouri—St. Louis, Ms. Berezniak’s
Governors of the Federal Reserve
             C. Investigative Oversight and Support       own admission, and information
System.
                                        2. Section AFJ.20, Office of               obtained by ORI during its oversight
TIME AND DATE: 10:00 a.m., Wednesday,
        Investigations—Functions, is amended         review, ORI finds that Ms. Berezniak,
October 7, 1998.
                             as follows:                                  former Research Assistant, Department
